MEMORANDUM

DATE:


TO:           Bradley Poston, Interim Director
 Division             of Acquisition and Cooperative Support

FROM:         Deborah H. Cureton
              Associate Inspector General for Audit

SUBJECT:      NSF OIG Audit Report No. OIG-06-1-004, Audit of Raytheon Polar
              Services Company’s Indirect and Other Direct Costs Internal Controls

In response to your request for audit assistan ce we contracted with the Defense Contract
Audit Agency (DCAA) to perform a series of audits of the Raytheon Polar Services
Company’s (RPSC) Calendar Year 2000-2004 in curred cost proposal subm issions of
costs claim ed under NSF Contract OPP-0000373. As these audits are com pleted and
issued to the NSF OIG by DC AA’s Herndon Branch Office, we provide the results and
our recommendation s to the Div ision of Acquisition and C ooperative Support (D ACS)
for appropriate action. This DCAA audit report addresses RPSC’s internal controls to
account for and report indirect and other dire ct costs in accordance with its disclosed
accounting practices and Federal and NSF contract requirements.

The objectives of the audit were to determ ine whether RPSC’s inter nal contro ls over
processing and claim ing indirect and other di rect costs und er the NSF contract pro vide
reasonable assurance that: 1) applicable laws an d regula tions are com plied with, 2) the
accounting system and cost data are reliable, 3) the risk of misallocations and mischarges
are m inimized, and 4) contract allocations    and charges are cons istent with invo ice
procedures.

DCAA perform ed the audit in accordance        with Generally Accep     ted Government
Auditing Standards.

                                      Background

The United States Antarctic Program (USAP) has, since 1971 when NSF assumed full
responsibility for USAP, provided a perm anent presence and overseen U.S. scientific
interests in Antarctica. RPSC, located in Centennial, Colorado, is a unit of Raytheon
Technical Services Company (RTSC) headquart ered in Reston, Virg inia. RPSC is under
contract with NSF to provide science, ope rations, and m aintenance support to sustain
year-round research program s. The contract co nsists of a five-year base period and five
option periods for a total of ten years and is valued at $1.1 b illion. The charges claime d
against the contract average                           .

                                    Summary of Results

On Decem ber 15, 2005 , DCAA Herndon Branch O ffice issued “Report on Audit of
RTSC Polar Services Indirect and Other Direct Cost Internal Controls” (see Attachment).
The auditors found that RTSC and RPSC lack          adequate internal controls in all areas
related to classifying NSF contract costs as either Indirect Costs or as Other Direct Costs.
RPSC is incorrec tly recording and charging indirect costs, which are s ubject to the NSF
contract limitation of
                                 , as m iscellaneous other dir ect costs. In addition, the
auditors found that RPS C’s in ternal controls did not ensu re that supporting documents
such as receipts and invoices were maintained for all costs claim ed on the NSF contract.
As a result, RPSC charged NSF over                     of costs from 2000-2002 that RPSC
was not entitled to recover under the terms of the NSF contract.1

A brief summary of the DCAA audit findings concerning RPSC’s inadequate
indirect/other direct cost classification system follows:

•   Undocumented Standard Accounting Practices Beginning January 1, 2005, RTSC
    excluded R PSC from i ts Cost Accounting Standard Board Disclosu re Statem ent
    (Disclosure Statem ent). A Disclosure Stat ement identifies the standard accounting
    practices th at a contractor rep resents that it uses to class ify its costs as indirect or
    other direct costs in its accounting sy stem and to bill costs to the federal governm ent.
    RPSC is required by Federal and NS F contract requirements to maintain a Disclosure
    Statement with the U.S. Government.          As of Dece mber 15, 2005, a Disclosure
    Statement for RPSC had not been submitted. Without the Disclosure Statement, there
    is no common understanding betw een RPSC and NSF a nd therefore, no basis to
    readily and clea rly de termine the correc tness a nd accura cy of billings presented to
    NSF for paym ent. In effect, no accounting document, report, or billing from RPSC
    can be con sidered to be an accu rate s tatement of NSF contra ct co sts withou t a
    Disclosure Statement and an agreed upon basis for RPSC to account for, classify, and
    bill its costs to NSF.2

•   Lack of In ternal Complianc e Mo nitoring RPSC did not have and/or did not
    implement adequate p olicies and procedur es to ensur e the allo wability and
    allocability of the NSF cont ract costs recorded its accoun ting records for the 2000 to
    2002 contract years. In addition, R PSC management did not period ically review the

1
  Previously reported in OIG Audit Report No. OIG-5-1-005 dated March 31, 2005.
2
  DCAA, in Audit Report No. 6161-2005T19200303 dated November 18, 2005, cited RPSC for
inadequately disclosing its accounting practices to the government.


                                               2
    adequacy or the im plementation of its polic ies and procedures for the accounting and
    billing of indirect and other direct cost s. RPSC m anagement did not 1) conduct
    regular rev iews to iden tify outdated policies and procedur es; 2) ensure that RPS C
    employees consistently adhere to p olicies and procedures in clas sifying indirect and
    other d irect costs in th e R PSC accounting records, in a ccordance with its d isclosed
    accounting practices; 3) ensure that RPSC employees maintained adequate supporting
    documentation in accordance with governm ent contract regulati ons; and 4) ensure
    RPSC employees properly allocated allowable costs to the NSF contract. As a result,
    RPSC charged NSF over                      of costs from 2000-2002 that RPSC was not
    entitled to recover under the terms of the NSF contract.

    In addition, without periodic reviews of its policies a nd operating procedures, RPSC
    could not ensure its own higher-level m      anagement or NSF that it had correctly
    recorded an d billed con tract cos ts in co mpliance with applicable Fede ral and NSF
    requirements. Such reviews would have ensured that RPSC’s policies and procedures
    remained current and consistent with its disclosed accounting practices and applicable
    Federal and NSF contractual requirements.3

•   Lack of Tra ining RPSC does not have an employ ee-training program structured to
    produce trained em ployees with the necessary s kills to con sistently an d accurately
    classify NSF contract costs as indirect or as other direct costs. The RPSC training
    policies and procedures need to address how an employee can accurately determine if
    a cost is both allowable for paym ent unde r governm ent contracting regulations and
    correctly classified as an ind irect or othe r d irect cost. I t is im portant th at RPSC
    employees are well vers ed in the in direct/ other direct cos t class ification process in
    order to ensure accurate and p       roper clas sification of NSF contract co       sts for
    allowability and allocability.

                                     Recommendations

The DCAA audit report m akes a num ber of recomm endations to improve RPSC’s
internal con trols. Acco rdingly, we recomm end that NSF’s Director of the Division of
Acquisition and Cooperative Support work with RTSC and RPSC to develop a corrective
action p lan to addres s all of the recomm endations in the DCAA report and ensure that
RPSC:

    1. Discloses to the government its standard accounting practices.

    2. Establishes adequate policies and proce dures, including an internal compliance
       program and an e mployee training program , to com ply with the requirem ents of
       government contracting regulations as identi fied in the DCAA audit report. Such
       programs will help ensure that RPSC employees both understand and consistently
       classify costs as either direct or in direct in accordance with RPSC’s disclosed


3
 DCAA, in Audit Report No. 6161-2005T19200303 dated November 18, 2005, cited RPSC for not
disclosing its accounting practices to the government.


                                               3
       accounting practices and the requirements of applicable Federal and NSF contract
       requirements.

In addition, we recom mend that NSF’s Dire ctor of the Divisi on of Acquisition and
Cooperative Support:

   3. Review all RPSC billings by requesting audits of pub lic vouchers or quarterly
      expenditure reports. RPSC lacks adequa           te controls to ensure consisten t
      classification of direct and indirect co sts in accordance with RPSC’s disclos ed
      accounting practices and the requirements of applicable Federal and NSF contract
      requirements.

   4. Withhold payments for any indirect costs that are incorrectly claimed by RPSC as
      other direct costs in v iolation of R PSC’s disclosed acco unting p ractices and
      applicable Federal and NSF contract requirements.

In its response to the draft of the DCAA re port, RPSC agreed to update its policies and
procedures, conduct adequate m anagement compliance reviews, and standardize training
requirements for RPSC employees. However, RPSC contends that some of the costs that
were iden tified in the a udit a s unallowable wer e requ ired b y the con tract and RPS C is
willing to provide additional justification.

We consider the issues in the audit r eport to be s ignificant. Accordingly , to help ensure
the findings are resolv ed with in six m onths of issuance of the aud it r eport, please
coordinate with our of fice during the resolution period to develop a mutu ally agreeable
resolution of the audit recomm endations. The findings should not be closed until NSF
determines that all recomm endations have been adequately addr essed and proposed
corrective actions have been satisfactorily implemented.

We are providing a copy of this m emorandum to the Director of the Office of Polar
Programs, the Director of Budget, Finance and Award Managem ent, and the Director of
the Division of Institution and Awa rd Support. The responsibility for audit resolutio n
rests with DACS. Acco rdingly, we ask that no action be taken c oncerning the report’s
findings without first consulting DACS at (703) 292-8242.

                                 OIG Oversight of Audit

To fulfill our responsibilities under Government Auditing Standards, the Office of Inspector
General:

   •   Reviewed DCAA’s approach and planning of the audit;

   •   Monitored the progress of the audit at key points;

   •   Coordinated periodic meetings with DCAA and OIG management to discuss audit
       progress, findings, and recommendations;


                                             4
      •   Reviewed t he audit re port, pre pared by DCAA to ensure   compliance with
          Government Auditing Standards and Offic e of Management and Budget Circular s;
          and

      •   Coordinated issuance of the audit report.

DCAA is responsible for the attached auditor’s report on RPSC dated December 15, 2005
and the conclusions expressed in the report. The NSF OIG does not express any opinion
on the conclusions presented in DCAA’s audit report.

We thank you and your s taff for the assistance t hat was extended to us during the audit. If
you have any questi ons about the att ached report, please contact Kenneth Sta gner at (303)
312-7655 or Jannifer Jenkins at (703) 292-4996.


Attachment - DCAA Report on Audit of RTSC Polar Services Indirect and ODC Internal
Controls dated December 15, 2005

cc:       Karl Erb, Director, OPP
          Thomas Cooley, Director, BFA
          Mary Santonastasso, DIAS




                                                5
             DEFENSE CONTRACT AUDIT AGENCY

             AUDIT REPORT NO. 6161-2004T14980202

                                                         December 15, 2005

PREPARED FOR: National Science Foundation
              ATTN: Ms Deborah Cureton
              Associate Inspector General for Audit
4201               Wilson Boulevard
              Arlington, VA 22230

PREPARED BY:      DCAA Herndon Branch Office
                  171 Elden Street, Suite 305
                  Herndon, VA 20170
Telephone                        No.
FAX                        No.
E-m                       ail Address

SUBJECT:          Report on Audit of RTSC Polar Services Indirect and ODC Internal
                  Controls

CONTRACTOR:       Raytheon Polar Services Company
                  Raytheon Technical Services Company
Raytheon                   Company
                  12160 Sunrise Valley Drive
                  Reston, VA 20191

REPORT RELEASE RESTRICTIONS: See Page 36

                                                                                     Page
CONTENTS:          Subject of Audit                                                    1
Executive                     Summary                                                  1
                   Scope of Audit                                                      2
                   Results of Audit                                                    3
Contractor                    Organization and Systems                                23
                   DCAA Personnel and Report Authorization                            35
                   Audit Report Distribution and Restrictions                         36
Appendix                                                                              37
Audit Report No. 6161-2004T14980202

                                     SUBJECT OF AUDIT

       By submitting payment request under government Cost-Plus-Award Fee contracts,
Raytheon Polar Services Company asserts that its internal controls are adequate to provide
reasonable assurance that:

       •   Applicable laws and regulations are complied with;
       •   The accounting system and cost data are reliable;
       •   Risk of misallocations and mischarges are minimized; and
       •   Contract allocations and charges are consistent with invoice procedures.

       We have examined the RPSC indirect cost and other direct cost system as of
December 2005, to assure that contractor’s system of indirect cost and other direct cost controls
is adequate to provide indirect cost and other direct cost that are reasonable, compliant with
applicable laws and regulations, and subject to applicable financial control systems, and to
evaluate compliance with the system’s internal control requirements.

        Raytheon Polar Services is responsible for establishing and maintaining an adequate
indirect cost and other direct cost system. Our responsibility is to express an opinion on the
adequacy of the indirect cost and other direct cost system based on our examination.


                                   EXECUTIVE SUMMARY

        RPSC indirect and other direct cost system is inadequate. Our examination disclosed
significant deficiencies in all four (4) of the control objectives (Allowability, Allocability,
Management Compliance Reviews, and Training) applicable to the RPSC indirect and other
direct cost system. Those deficiencies could result in unallowable or misallocated indirect and
other direct costs in proposals, billings, and claims submitted to the U.S. Government.

SIGNIFICANT ISSUES:

•   The RTSC segment disclosure statement which defines the contractor’s current accounting
    practice regarding indirect and ODC costs, excludes Raytheon Polar Services as of
    January 1, 2005. To date, a disclosure statement for Raytheon Polar Services has not been
    submitted to the Government.

•   Policies and procedures regarding the allowability of selected costs are in noncompliance
    with the Federal Acquisition Regulation (FAR) Part 31. Specifically, RPSC policies and
    procedures address certain costs as allowable which, in our opinion, are expressly
    unallowable based on applicable FAR provisions.
Audit Report No. 6161-2004T14980202

•   Costs that are made expressly unallowable based on the FAR or RPSC/RTSC policies and
    procedures were charged as allowable, indicating that the contractor is not adequately
    complying with established controls to properly classify and record unallowable costs. The
    deficiencies represent a noncompliance with CAS 405-40(a), Accounting for Unallowable
    Costs, FAR Part 31, and established company policies and procedures.

•   The contractor lacks policies and procedures regarding the training of employees in the
    Indirect/ODC system.

•   The contractor has inadequate policies and procedures regarding periodic, independent
    management reviews and its associated compliance.

•   We identified inadequacies that affect the allocability of costs indicating that the contractor
    lacks adequate controls to ensure the consistent classification of costs based on CAS 418,
    Allocation of Direct and Indirect Cost [CAS 418-40(a)].


                                       SCOPE OF AUDIT

       We conducted our examination in accordance with generally accepted government
auditing standards. Those standards require that we obtain a sufficient understanding of internal
controls to plan financial audits and determine the nature, timing and extent of tests to be
performed. An examination of internal controls includes:

       •   identifying relevant system control objectives and associated control activities;
       •   obtaining an understanding of all applicable components of internal control for the
           identified control objectives and activities;
       •   determining if the internal controls are adequate and in operation; and
       •   assessing control risk to use as a basis for planning the nature, timing and extent of
           substantive testing in other attestation audits.

       We evaluated the RPSC Indirect and ODC system using the applicable requirements
contained in the:

       •   Federal Acquisition Regulation (FAR), and
       •   Cost Accounting Standards (CAS)




                                                  2
Audit Report No. 6161-2004T14980202

        Our examination specifically tested the indirect cost and other direct cost system’s
internal control procedures associated with the following control objectives:

        •   Contractor Compliance Reviews
        •   Training
        •   Preparation of Indirect and ODC Submissions
        •   Allowability of Selected Indirect Cost/ODCs
        •   Allocability of Indirect Cost/ODCs

        We believe that our examination provides a reasonable basis for our opinion.

        Because of inherent limitations in any internal control, misstatements due to error or
fraud may occur and not be detected. Also, projections of any evaluation of the internal control
over the indirect cost and other direct cost system to future periods are subject to the risk that the
internal control may become inadequate because of changes in conditions, or that the degree of
compliance with the policies or procedures may deteriorate.


                                       RESULTS OF AUDIT

       In our opinion, the indirect cost and other direct cost system and related internal controls
of Raytheon Polar Services Company are inadequate.

        Our examination identified certain significant deficiencies in the design or operation of
the internal control structure. In our opinion, these deficiencies could adversely affect the
organization’s ability to record, process, summarize, and report indirect and ODC costs in a
manner that is consistent with applicable government contract laws and regulations. These
conditions are detailed in the “Statement of Conditions and Recommendations” on page 7 of this
report and are summarized below:

Contractor Compliance Reviews. RPSC does not have sufficient compliance review
requirements within its existing policies and procedures. RPSC has not demonstrated current
control activities in the areas of self risk assessment or self monitoring activities as they relate to
management compliance reviews.

The existence of strong internal controls as evidenced by management compliance reviews
increases the reliance that can be placed on cost representations from the Indirect/ODC system.
The compliance review control objective states that management should periodically perform
independent reviews of the Indirect/ODC System policies and procedures to ensure that they
comply with applicable laws and regulations, have been implemented, and are working
effectively.
                                                   3
Audit Report No. 6161-2004T14980202

Training. RPSC currently does not have adequate written policies and procedures on training
employees involved in the Indirect/ODC system. RPSC provided us with policies and
procedures but they only relate to the SAP accounting system and not to processing indirect and
other direct costs for allowability, allocability, or reasonableness.

Well-trained Indirect/ODC employees will help to ensure accurate and proper classification of
costs in terms of allowability, allocability, and reasonableness. The training control objective
requires the contractor’s system to ensure that assigned personnel have sufficient training,
experience, and guidance to perform Indirect/ODC functions in accordance with established
policies and procedures.

Preparation of Indirect/ODC Submissions. No reportable conditions were determined due to the
limited scope of this control objective. RPSC does not participate in the process associated with
the incurred cost submission. The incurred cost submission is the sole responsibility of the
RTSC Home Office. A current Indirect/ODC system audit is being performed under Audit
Assignment No. 6161-2005T14980301 for the RTSC Home Office. As a result, we did not
perform any testing of the internal controls related to the incurred cost submission.

Allowability of Selected Indirect/ODC Costs. RPSC currently has policies and procedures in
place that are in noncompliance with FAR 31.205 concerning the allowability of costs. In
addition, the policies lack the requirement of management reviews for allowability and instead
require approval only for those items which RPSC had pre-established as unallowable. Finally,
the contractor’s requirements for supporting documentation are not clearly defined. These
conditions have resulted in the improper booking and billing of unallowable costs on the
Raytheon Polar Services contract.

Adequate policies and procedures would help ensure that practices comply with federal
regulations and there is a consistent application of approved practices. The Allowability of
Selected Costs control objective requires the contractor to ensure that Indirect/ODCs are properly
identified as allowable or unallowable, including directly associated cost, for U.S. Government
contract costing, billing, and pricing purposes (CAS 405/FAR 31.201-2 and 31.201-6).

Allocability of Indirect/ODC Costs. RPSC currently has no disclosure statement or policies and
procedures regarding the allocability of indirect and ODC costs to the RPSC contract.
Specifically, costs that are disclosed and allocated by RTSC as indirect are recorded and charged
direct to the Polar Services contract. Recording and charging these costs direct to the contract
may result in 100% reimbursement through contract billings to the government of those costs
that would be subject to the                                                         . RPSC
continued to operate under the RTSC disclosure statement through FY 2004. No major changes
were made in the RTSC disclosure statement regarding the costs disclosed and allocated by
RTSC as indirect but charged direct to the Polar Services contract. As of January 2005, RTSC

                                                4
Audit Report No. 6161-2004T14980202

segregated RPSC from its business unit disclosure statements and stated that an individual
disclosure statement would be submitted for Polar Services. To date, RPSC has no policies,
procedures, or disclosure statement in place to document current practices regarding costs
typically charged indirect but charged direct to the Polar Services contract.

In addition, more than                 of costs were questioned related to the misclassification as
ODC, rather than subcontract costs, as part of the FY 2000-2002 incurred cost audits. The
misclassification caused ODC costs to be overstated in the SAP accounting system. While the
contractor stated that the costs were billed correctly, the overstatement of ODC costs resulted in
an over allocation of RTSC and Raytheon corporate costs through an overstated value added
G&A base. The contractor recognized the error and made a correction on the billings to NSF but
failed to make the correction in its approved (SAP) accounting system.

The Allocability of Indirect/ODC control objective requires the contractor to ensure that
Indirect/ODCs are classified consistently between direct and indirect (CAS 402/FAR 31.202 and
31.203(a)) and properly allocated to cost objectives in accordance with applicable FAR and CAS
requirements.

       We assessed the risk as high for all of the control objectives, and our audit effort in the
following areas will be increased:

Incurred Indirect and Other Direct Costs. In our reviews of recorded indirect and other
direct costs, additional audit effort will be performed due to lack of effective indirect and
other direct cost internal controls in the areas of compliance reviews, training, cost
allowability, and allocability.

Billings. The contractor lacks adequate controls to ensure consistent compliance in cost
classification as direct or indirect based on its Disclosure Statement and the fundamental
requirements of CAS 418-40(a), Allocation of Direct and Indirect Cost. Therefore, in our
audits of public vouchers or quarterly expenditure reports, additional audit effort will be
performed on any significant other direct cost elements billed to the government to
ensure they are allocable as direct costs based on the contractor’s Disclosure Statement.

Contract Reporting. The contractor is not adequately complying with Raytheon
Company policies and procedures for specific cost elements designed for controlling cost
and determining/documenting cost allowability and compliance with government
regulations. Therefore, we plan to perform additional testing on any audits that involve
contract reporting.

       We examined only the indirect cost and other direct cost system. Accordingly, we
express no opinion on the contractor’s internal controls taken as a whole.

                                                  5
Audit Report No. 6161-2004T14980202

        We provided a draft copy of the Statement of Conditions and Recommendations to the
contractor’s representative for response. The contractor agreed to make changes to the controls
related to the compliance reviews, training, and allowability of costs. The contractor further
provided explanation for various unallowable costs which we identified in this report and
recognized the need to improve the documentation process. The contractor did not recognize nor
agree to any recommendations regarding the allocability of costs. In addition, the contractor’s
response was silent with respect to the deficiency related to the lack of a CASB required
disclosure statement. The complete text of the contractor’s response appears as an appendix to
this report.




                                               6
Audit Report No. 6161-2004T14980202

             STATEMENT OF CONDITIONS AND RECOMMENDATIONS

STATEMENT NO. 1: MANAGEMENT COMPLIANCE REVIEWS

CONDITION:

RPSC does not have sufficient compliance review requirements within its existing policies and
procedures. RPSC has not demonstrated current control activities in the areas of self risk
assessment or self monitoring activities as they relate to management compliance reviews. The
existence of strong internal controls as evidenced by management compliance reviews increase
the reliance that can be placed on the cost representations from the Indirect/ODC system. The
following policies and procedures identify some requirement for a periodic management review
but are not considered adequate for ensuring adherence to polices and procedures through self
monitoring.

Policy PS-CD-1522 (Rev 9) – Procurement Modes: Section 8.4 states that “Several
management reports and independent checks are provided to monitor controls and program
effectiveness.” However the success of the program depends on employee compliance with
program requirements. Employees are empowered to perform complete transactions. While the
program places a great deal of trust in Raytheon Employees, it also holds employees
accountable for non-compliance with program requirements.” In addition, Section 10.1 states
that “the card administrator also performs audit functions and supports the accounting a
reporting of the purchasing card information.” No other details are provided.

Policy PS-D-1540 (Rev 3) – Public Law Compliance: This policy refers to procurement
personnel. The policy refers to all of the laws applicable for TINA, CAS subcontract coverage,
Small businesses, Byrd Amendment, Advance notification, EEO, and so forth. There is no
information contained in the policy which specifies management review of compliance.

Policy FI-CDLMNPS-547 (Rev 0) – Accounting for Unallowable/Non-Billable costs to the
OPP Contract: The responsibility section, page 1, specifies the employees’ responsibility for
charging the costs and the Finance department’s responsibility for reconciling the unallowable
WBS’ and providing management with that reconciliation. The policy discusses the
responsibility of the employee for unallowable expenditures, and the requirement for
management approvals for any charges made to an unallowable WBS. The policy does not
require any type of compliance testing.

Policy FI-A-538 (Rev 3) – Business Meals, Entertainment, and Gifts: The purpose of the
policy is to establish guidelines for how and when business meals, entertainment, and gifts can
be reimbursed. The responsibility section states that “Employees that submit a reimbursement
request for unallowable costs are responsible for obtaining the proper documentation and

                                                7
Audit Report No. 6161-2004T14980202

approval to support the reimbursement claim.” In addition, the first paragraph of the discussion
section states that “Unallowable cost can be charged to the unallowable WBS to be paid for by
the Raytheon Technical Services Company. The Program Manager must approve all costs billed
to this WBS.” This policy does not require periodic management reviews.

Policy HR-DH-037 (Rev 6)– Achievement Awards: Under the responsibilities section of this
policy, the Human Resources Manager and the Finance Manager are responsible for ensuring
compliance with this policy. In addition, the Program Manager is responsible for understanding
the policy and the responsibilities outlined therein.

Policy FI-DHLMPS-521 (Rev 9) – Employee Manual RTSC Expense Reports: The
responsibilities section of the policy (page 2) specifies Division Directors, Managers, and
Supervisors are responsible for ensuring that all personnel under their supervision comply with
the procedures for incurring and reporting reimbursable employee expenses. In addition, the
Finance Manager is responsible for ensuring appropriate staff review expense reports for
compliance with procedures for reimbursement to employees. The final step on the policy
dictates that “The expense report will be reviewed by Finance for math, receipts, per diem
restrictions, and unallowable expenditures.”

Policy FI-DLMPS-548 (Rev 2) – Petty Cash Expense Procedure: This policy applies to all
employees’ that submit a request for reimbursement for petty cash expenses. While the policy
describes all criteria associated with petty cash transactions, it does not spell out a management
review process to ensure compliance with the policy. Therefore, we believe that the policy is not
adequate or sufficient; but needs to be expanded because it does not address essential attributes
regarding periodic management reviews.

Policy HR-MPS-035 – Long-Duration Contract completion Bonus and Preparatory Leave –
All Stations: This policy involves providing a completion bonus as an incentive for RTSC
employees at McMurdo and South Pole stations to work a full year. The Manager of Human
Resources is responsible for assuring compliance with the policy.

Periodic management compliance reviews covering the critical areas in the RPSC Indirect/ODC
system will provide reasonable assurance that the policies and procedures relating to
indirect/other direct cost claims (i.e. incurred cost submission) applicable to the Polar Services
contract are established, currently in practice, understood, and effectively implemented by RPSC
employees. The existence of strong internal controls increase the reliance that can be placed on
the cost representations generated from the contractor’s accounting system.




                                                8
Audit Report No. 6161-2004T14980202

RECOMMENDATION:

We recommend that RPSC revise its current policies and procedures to incorporate detailed
requirements of management compliance reviews as follows:

 ¾ Ensure adherence to the FAR, CAS, Disclosure Statement, the contract, and policies:
   Requirements for periodic reviews of current practices to ensure compliance with policies
   and procedures, CAS, FAR, the disclosure statement, and contract requirements.

 ¾ Incorporate a requirement for periodic reviews: Include a requirement for conducting a
   periodic review of policies and procedures to ensure compliance with applicable laws and
   regulations, disclosed practices and, that the policies and procedures have been
   implemented, and are working effectively.

 ¾ Specify interval of time for which the reviews should be conducted: The requirements
   for compliance reviews would ensure that management reviews are performed on a
   consistent basis.

 ¾ Specify the person or position responsible for performing the review: What level of
   management or position is responsible for conducting the reviews? Are the reviews
   delegated by a higher level of management and reported accordingly?

 ¾ Document the review: Require that documentation be maintained to evidence
   management compliance reviews were performed including the results of follow-up
   reviews. Identifying the requirement in the policies and procedures to maintain such
   documentation is important to facilitate the verification process during compliance testing
   by both the RTSC/RPSC internal audit and DCAA at a later time.

 ¾ Follow-up review: Require follow-up reviews be performed for any findings and
   recommendations identified during the review process. The policy should address tracking
   responses to and resolution of corrective actions. It should also provide that corrective
   actions are documented and verified.

The contractor’s compliance review will provide reasonable assurance that policies and
procedures relating to Indirect/ODC representations and submissions applicable to the Polar
Services contract are established, currently in practice, understood, and effectively implemented
by the employees involved in the Indirect/ODC system.




                                                9
Audit Report No. 6161-2004T14980202

CONTRACTOR’S RESPONSE:

“In respect to the noted deficiencies and recommendations RTSC – Polar Services agrees to
update the Polar Services procedures to include adequate management reviews where required.
In addition RTSC agrees to create a Polar Services Management Compliance Review Procedure
to ensure proper oversight per the audit report recommendation. The procedures will be updated
and the Management Compliance Review Procedure created by January 30, 2006.”

AUDITOR’S COMMENTS:

The contractor appears to agree that it needs to update and/or implement policies and procedures
regarding management compliance reviews. However, the contractor’s response is not detailed
or descriptive enough for us to determine whether or its corrective actions will be adequate. We
will perform a follow-up review once the contractor has had sufficient time to implement
adequate controls to correct the deficiencies and comply with our recommendations. For us to
evaluate the adequacy of the corrective actions for a follow-up review, the contractor should
document and maintain the plan in sufficient detail to demonstrate how each of our
recommendations was addressed.


STATEMENT NO. 2 - TRAINING

CONDITION:

RPSC currently does not have adequate policies and procedure covering the training of
employees involved in the Indirect/ODC system. Well-trained Indirect/ODC employees will
result in accurate and proper classification of costs in terms of allowability, allocability, and
reasonableness.

RECOMMENDATION:

RPSC should either develop policies and procedures that require training of employees in the
Indirect/ODC system or incorporate critical attributes of a training program into its existing
policies and procedures. The policies and procedures should include at a minimum the following
criteria:

 ¾ Requirement for training: Policies and procedures should require those personnel
   responsible for making specific determinations on whether costs should be claimed and/or
   billed receive training that introduces them to the problems of allowability, allocability, and
   reasonableness of costs as they relate to government contracts. The forms (formats) of the
   trainings can vary (e.g. training catalog, seminars, workshops, etc). RPSC may provide

                                                 10
Audit Report No. 6161-2004T14980202

     internal courses or opportunities for personnel (especially those with cost assignment
     responsibilities and reviewers of such cost assignments) to take outside education courses
     to cover the Indirect/ODC related topics; specifically, CAS and FAR. If internal courses
     are provided, the procedures should include a specific requirement that the training
     programs/materials be updated to cover current government rules and regulations and
     adjusted to comply with revisions to the RPSC Indirect/ODC system. Dissemination of
     such information to employees may be covered under more than one class, and some may
     be covered by memorandums, bulletins, or pamphlets.

 ¾ Frequency of training: Policies and procedures should clarify the frequency of training.
   The degree and frequency of training requirements should be specified to ensure that
   employees are kept up to date on all changes in CAS, FAR, and disclosure statement
   practices.

 ¾ Documentation of training history: Policies and procedures should provide requirements
   for documenting and maintaining the records of training to evidence the conduct and
   completion of the required training to facilitate compliance testing. Documentation of an
   employee’s training history will also facilitate determination of required refresher training.

 ¾ Topics of training: Policies and procedures should provide the training topics (not
   specific course names, but topics) that are deemed critical in performing the RPSC
   Indirect/ODC functions. This will help identify the need for training not only for
   existing/experienced employees (especially those with cost assignment responsibilities and
   reviewers of such cost assignments), but also new employees.

In summary, we recommend that RPSC incorporate a training section in its policies and
procedures to include and adequately address various types (formats) of training required for
RPSC Indirect/ODC employees (including updating the internal course materials and
dissemination of the updated/revised information if the internal courses are provided), clarify the
frequency of training, identify a documentation requirement for the completed Indirect/ODC
training, and provide training topics (FAR, CAS, RTSC and RPSC polices and procedures) to
assist employees (existing employees and new employees) in identifying the training needs that
are deemed critical and necessary in performing the Indirect/ODC functions (either as a cost
assigner or reviewer/approver of the cost assignment).

CONTRACTOR’S RESPONSE:

RTSC provides all employees with the necessary training and or resources to perform their
responsibilities. RTSC, through the Raytheon Learning Institute, provides courses designed to
accompany the training employees have received within their respective departments. In
addition, RTSC provides resource material on the company website to assist employees along

                                                11
Audit Report No. 6161-2004T14980202

with contact information for subject matter experts. The website also provides access to all
Raytheon Company and RTSC Policies and Procedures for all functions (i.e. Finance, Contracts,
Human Resources, Engineering, et al) for governance and compliance.

“RTSC believes in continued improvement in all areas including policies and procedures and
training. As a result of the suggestions provided in this audit report we agree to implement a
procedure designed to standardize to training requirements for Polar Service employees of
appropriate policies and procedures and CAS and FAR statements. The procedure will be
developed and implemented by March 31, 2006.”

AUDITOR’S COMMENTS:

The contractor has agreed to develop and implement a procedure that will standardize training
requirements for Polar Service employees. However, the contractor’s response is not detailed or
descriptive enough for us to determine whether or not its corrective actions will be adequate. We
will perform a follow-up review once the contractor has had sufficient time to implement
adequate controls to correct the deficiencies and comply with our recommendations. For us to
evaluate the adequacy of the corrective action plan for a follow-up review, the contractor should
document and maintain the plan in sufficient detail to demonstrate how each of our
recommendations was addressed.




                                               12
Audit Report No. 6161-2004T14980202

STATEMENT NO. 3 - ALLOWABILITY OF SELECTED COSTS

CONDITION:

RPSC has policies and procedures in place that do not comply with FAR 31.205 concerning the
allowability of costs. In addition, the policies lack the requirement of management to review
expenses for allowability and instead only require approval of those items that RPSC had pre-
established as unallowable. Finally, the contractor’s requirement for supporting documentation
is not clearly defined. As a result, we believe these conditions have resulted in the contractor
improperly booking and billing unallowable costs on the Raytheon Polar Services contract. The
following policies and procedures, in our opinion, do not comply with various FAR 31
provisions:

Accounting for unallowable/non-billable costs to the OPP contract (FI-CDLMNPS-547): The
contractor’s policy for accounting for unallowable costs states that “employees that plan to
charge unallowable costs are responsible for obtaining the proper approval by the Program
Manager (or designee) prior to incurring the unallowable expense”. The policy also requires the
employee to turn in documentation supporting his/her unallowable expense to finance. In
addition, the unallowable costs are to be booked to a pre-determined unallowable WBS to be
paid for by RTSC. On a monthly basis, the costs that were booked to the “unallowable” WBS
need to be supported with documentation to the Finance Department within five (5) business
days. Finance is responsible for reconciling the unallowable WBS each month and providing the
reconciliation to the Finance Manager and Program Manager for review. The review of a given
unallowable WBS does not ensure all unallowable costs are being booked to the unallowable
WBS. It only ensures that those employees who book unallowable costs appropriately receive
approval before doing so. The policy should address the review of all costs for allowability
regardless of whether the employee defines the costs as unallowable or not. The policy then goes
through an interpretation on many of the items contained in FAR 31.205. Upon review of the list
of billable v. non-billable items, there are several items which the policy states are billable to the
contract that are unallowable based on FAR 31.205. The sections of the policy and our
associated FAR interpretation are as follows:

       Employee Morale, Welfare, and Recreation:
       1. “Reasonable cost of company events such as Friday afternoon cookouts, Wind down
          Fridays, etc that are intended to improve working conditions, employee employer
          relations, employee morale, or employee performance, excluding unallowable alcohol
          and entertainers are allowable”.




                                                 13
Audit Report No. 6161-2004T14980202

           DCAA Interpretation:
             FAR 31.205-13 provides examples of allowable activities designed to improve
             working conditions, employer-employee relations, employee morale, or employee
             performance. Those examples include House Publications, Health Clinics,
             Wellness/Fitness Centers, Employee Counseling Centers, and Dorm and Food
             Services.

               In addition, FAR 31.205-14 states that “Costs of amusement, diversions, social
               activities, and any directly associated costs such as tickets to shows or sporting
               events, meals, rental, lodging, rentals, transportation, and gratuities are
               unallowable. Costs made specifically unallowable under this cost principle are
               not allowable under any other cost principle.”

       2. “Tickets to plays, sporting events, concerts, amusement parks, movies, or social
          events provided to employees for recognition of achievement or performance are
          billable.”

           DCAA Interpretation:
             FAR 31.205-14 states that “Costs of amusement, diversions, social activities, and
             any directly associated costs such as tickets to shows or sporting events, meals,
             rental, lodging, rentals, transportation, and gratuities are unallowable. Costs made
             specifically unallowable under this cost principle are not allowable under any
             other cost principle.”

       3. Reasonable costs of annual picnics or outings designed to improve employer-
          employee relations or employee morale that are company sponsored, segment
          sponsored, or segment – (plant) wide, excluding unallowable alcohol, or
          entertainment.

           DCAA Interpretation:
             FAR 31.205-14 states that “Costs of amusement, diversions, social activities, and
             any directly associated costs such as tickets to shows or sporting events, meals,
             rental, lodging, rentals, transportation, and gratuities are unallowable. Costs made
             specifically unallowable under this cost principle are not allowable under any
             other cost principle.”

Petty Cash policy (FI-DLMPS-548): We reviewed the contractor’s petty cash policy for the
Denver Headquarters (HQ) office and did not see any direction as it pertains to the treatment of
unallowable costs. We tested the contractor’s policy for petty cash against actual costs incurred
through the petty cash process and determined that 60% of the transactions that flow through
petty cash are unallowable based on FAR 31.205. Most of the items related to gifts and prizes

                                                14
Audit Report No. 6161-2004T14980202

for HQ personnel for non-contract type events such as an Extreme Cube Makeover, Photography
Interest Group, Summer Picnic Food and Prizes, and Clean Your Workstation Day.

Unallowable - FAR 31.205-14, Entertainment Costs. The entertainment cost principle provides
that if a cost is for amusement, diversions, social activities, and memberships in social clubs, or
any associated costs, then the cost is unallowable. This is true even if the primary purpose of the
entertainment is for compensation to an employee, selling or marketing, public relations, or any
other purpose. No other cost principle may take precedence over the entertainment cost
principle.

Business Meals, Entertainment and Gifts, FI-A-538: We reviewed the contractor’s Business
Meals, Entertainment, and Gifts procedure as it pertains to the controls associated with
unallowable costs. The purpose of the procedure states that it is to “Establish guidelines for how
and when business meals, entertainment, and gifts are to be reimbursed”. It further provides that
the employee is responsible for obtaining proper documentation and approval to support a
reimbursement claim. The procedure then states that “unallowable costs can be charged to the
unallowable WBS to be paid for by the Raytheon Technical Services Company. The Program
Manager must approve all costs billed to this WBS”.

The policy fails to require the employee to charge an unallowable cost to the unallowable WBS
and lacks the requirement for review of costs by management or other trained personnel to
ensure that all costs are classified correctly and booked accordingly. The policy simply requires
that unallowable costs be approved.

The lack of sufficient and compliant controls has resulted in (1) numerous instances of expressly
unallowable costs being charged to the government and, (2) insufficient documentation of
transactions for costs incurred and billed to the contract for which the allowability of the costs to
the contract can not be readily determined. Some examples of transactions that demonstrate the
lack of internal controls are as follows:

   •   An invoice from Harry & David’s gourmet was reviewed which disclosed that a tower of
       chocolates was purchased as a holiday gift from the Program Manager to an unspecified
       recipient.
   •   Transactions related to items billed from a subcontractor were included stereo equipment
       for a gym, an espresso machine, and beer and wine.
   •   Booking of identified unallowable direct travel as a direct cost to the contract using the
       miscellaneous ODC account category and project R-PS27.
   •   Two (2) charges for Dave and Busters on a pro-card statement with no supporting
       documentation. The charges were for $998.00 and $972.57. This would have been
       considered entertainment expense based on FAR 31.205-14.
                                             15
Audit Report No. 6161-2004T14980202

   •   An invoice was reviewed from High Anxiety Wholesale which billed for fifty (50) fleece
       vests embroidered with the Antarctic star. These costs are not considered reasonable
       based on FAR 31.201-2(d). The purpose of the vests and to whom they were issued was
       also not disclosed which suggests potential unallowable costs based on FAR 31.205-
       1(f)(5) – Public relations and advertising costs.
   •   The contractor submitted a Lowes Home Improvement receipt with a pro-card statement
       for air conditioning supplies. The purpose of the purchase was not stated. The
       documentation is considered insufficient.
   •   The contractor paid charges on a pro-card statement for various amounts that were not
       supported and are likely personal purchases. Purchases at Virgin Body Care Inc. which
       sells herbal, nutritional and food supplement items. Purchases were also made at the
       Raining Rose which specialize in all natural, handcrafted body care products, soaps,
       shampoos, lotions, shower gels, and so forth. These costs are considered unallowable
       based on FAR 31.201-2(d). There was also a charge for a Colorado Restaurant
       Association membership. The association with the Polar Services contract was not
       established.
   •   The contractor submitted invoices related to the rental of tables, chairs, water barrels,
       and so forth for purposes of a barbeque. The rental equipment was provided by Butler
       Rents. The barbeque was catered by Franks Barbeque. No purpose was stated. The
       function was held around the time frame of the 4th of July. The charges were related to
       the pro-card statement. The credit card statement was approved by management and the
       amounts appear to be expressly unallowable although no purpose was stated for the
       costs.
   •   An invoice for 548 Souvenir Baseball caps was questioned. The invoice was presented
       with a purchase order which failed to identify the purpose of the baseball caps in relation
       to the performance of the contract. The invoice was initialed by a finance person and the
       purchase order was not signed. This cost is considered unallowable based on FAR
       31.205-13(b).
   •   Several transactions related to the pre-season social to include wine, ice sculptures,
       quartets, flowers, and so forth were charged direct to the contract. These items while
       approved by management for reimbursement under the contract are unallowable based
       on FAR 31.205-13, FAR 31.205-14, and FAR 31-.205.51.
   •   The contractor incurred a penalty related to the payment of taxes for an employee to the
       New Zealand IRD. The penalty and taxes are considered expressly unallowable based on
       FAR 31.205-41.




                                               16
Audit Report No. 6161-2004T14980202

   •   The contractor purchased seventeen (17) gift certificates from various businesses and
       restaurants in the New Zealand area for the purposes of safety awards. There is no
       documentation of an award program, or whom the awards were being presented. This
       transaction was based solely on an e-mail request.
   •   Charges for an end of season barbeque were charged direct to the contract. These items
       had insufficient documentation and no business purpose.

The lack of internal controls over unallowable costs has resulted in the contractor billing costs to
the government that are either unallowable based on FAR 31.205 or for which the business
purpose and relationship to the contract has not been identified as required by FAR 31.201-2(d).
FAR 31.201-2(d) states that “a contractor is responsible for accounting for costs appropriately
and for maintaining records, including supporting documentation, adequate to demonstrate that
costs claimed have been incurred, are allocable to the contract, and comply with applicable cost
principles in this subpart and agency supplements. The contracting officer may disallow all or
part of a claimed cost which is inadequately supported.”

RECOMMENDATION:

The contractor has provided a project structure to ensure that unallowable Indirect/ODC,
including directly associated costs, can be segregated from allowable costs, however, the
controls required to ensure that unallowable costs are being accounted for in accordance with the
FAR have not been implemented. There are several controls that should be documented and
implemented within the contractor’s policies and procedures as follows:

   ¾ We recommend that the contractor revise its policies and procedures related to the
     definition and treatment of unallowable costs so they comply with FAR 31.205.

   ¾ We recommend that the contractor provide adequate training on FAR Part 31.205 to
     employees involved in determining the allowability of costs with emphasis on identifying
     and classifying unallowable expenses at the time the costs were incurred since point of
     entry screening is inherently more effective than after-the-fact screening/scrubbing for
     the identification and segregation of unallowable costs. In addition, policies and
     procedures should require those personnel responsible for making specific determinations
     concerning the treatment of costs receive training that introduces them to the problems of
     allowability, allocability, and reasonableness of costs as they relate to government
     contracts.

   ¾ We recommend that RPSC expand its policies and procedures to provide more guidance
     on the reasonableness of costs for some of the more frequently used sensitive accounts
     (e.g. Miscellaneous ODC) since reasonableness is a criteria (requirement) used in
     determining the allowability of the costs based on FAR 31.201-2(a).
                                                 17
Audit Report No. 6161-2004T14980202

   ¾ We recommend that the contractor incorporate the requirement for review and approval
     of costs in the various policies and procedures related to Indirect/ODC. The requirement
     to review unallowable costs that are booked to the unallowable WBS does not ensure that
     all costs incurred are reviewed for allowability. RPSC should also ensure that its policies
     and procedures specifically provide documentation to evidence the required reviews and
     approvals. Adequate policies and procedures should also require there be a reviewer for
     every cost assignment.

   ¾ We recommend that the contractor develop and maintain policies and procedures
     regarding adequate and inadequate supporting documentation for transactions. The
     policies and procedures should require:

           •   Supporting documentation should be self explanatory as to the details of each
               expense.

           •   The requirement for and level of required approval of expenses should be clearly
               identified.

           •   Transactions contain the applicable evidential matter required to demonstrate the
               applicability to the final cost objective to which they are being charged.

In summary, we recommend that RPSC develop policies and procedures or incorporate controls
into existing policies and procedures to ensure that unallowable costs are being correctly
identified, approved, charged, and ultimately removed from all costs that are charged to the
government. These controls should include training of employees, review of expenditures,
approval of costs and associated job charges, and detailed supporting documentation.

CONTRACTOR’S RESPONSE:

“RTSC provides annual guidance to all employees on the subject of Allowable and Unallowable
Costs per the FAR. Also all employees are provided contact names for additional guidance, if
required. Classes are offered by the Raytheon Company on the subjects of FAR, CAS and
Principles for Financial Regulations. A course, specifically on Allowable and Unallowable
Costs is being rolled out this month by the company. It will be offered to all Raytheon Company
employees in a teacher training environment and also web-based training to ensure all employees
have access to the materials.

With respect to suggestions regarding the Polar Services Program Policies and Procedures,
RTSC agrees that these should be updated and will provide revised versions in alignment with
Raytheon policies, no later than January 30, 2006. The revised Polar Services Program Policies
and Procedures will also include a section on management approvals and oversight designed to

                                               18
Audit Report No. 6161-2004T14980202

ensure that proper reviews for allowable and unallowable costs are performed in accordance with
FAR 31.205.

In review many of the examples provided in the audit report are required in the performance of
the contract and are allowable costs. It appears that some costs may be unallowable based on the
information provided in the audit report. Polar Services has addressed each of the examples
below and we would appreciate scheduling a review of the documentation and supporting
justification for allowability with you for each of the questioned items and withdraw the costs if
appropriate.”

AUDITOR’S COMMENTS:

The purpose of this audit was to evaluate and test the internal controls related to the contractor’s
Indirect/ODC system. Transactions were identified as unallowable costs as part of our FY 2000-
2002 incurred cost audits and, in our opinion, represent weaknesses in the contractor’s internal
controls over the allowability of costs. The NSF contracting officer is now in the
negotiation/resolution stage regarding these and other transactions that were identified as
unallowable costs during our incurred cost audits.

RPSC has agreed to implement certain recommendations related to the allowability of selected
costs. However, the contractor’s response as it pertains to the internal controls related to the
allowability of Indirect/ODC costs is not detailed or descriptive enough for us to determine
whether or not any corrective actions will be adequate. We will perform a follow-up review
once the contractor has had sufficient time to implement adequate controls to correct the
deficiencies and comply with our recommendations. For us to evaluate the adequacy of the
corrective action plan for a follow-up review, the contractor should document and maintain the
plan in sufficient detail to demonstrate how each of our recommendations was addressed.

STATEMENT NO. 4 - ALLOCABILITY OF COSTS

CONDITION:

A CAS 418 noncompliance report identified costs that are disclosed as indirect but were
recorded and charged direct to the Polar Services contract. Recording and charging these costs
direct to the contract may result in100% reimbursement through contract billings to the
government of those costs that would be subject to the                                     rate
ceilings (i.e., National Science Foundation).

RPSC continued to operate under the RTSC disclosure statement through fiscal year 2004. No
major changes were made in the RTSC disclosure statement regarding this CAS noncompliance.


                                                19
Audit Report No. 6161-2004T14980202

As of January 2005, RTSC segregated RPSC from the RTSC business unit disclosure statements
and stated that an individual disclosure statement would be submitted for Polar Services.

To date, RPSC has no policies, procedures, or disclosure statement in place to document its
current practices regarding corporate allocations and locally incurred indirect functions. As part
of our request for RPSC policies and procedures related to corporate and RTSC allocations, the
contractor’s representative stated,

       “With respect to Corporate and RTSC Allocations please refer to the RTSC
       Disclosure Statement (DS) Part VIII – Home Office Expenses. A copy of the
       latest RTSC DS has been provided to DCAA. Please let me know if you need
       additional copies.”

The contractor’s representative stated that a response would be provided at a later date for
policies and procedures related to the allocability of Indirect/ODC. Subsequently, a response
was provided by the RPSC Controller that stated Polar Services follows RTSC policies and
procedures related to the allocability of Indirect/ODC. To date, no policies and procedures have
been provided.

In addition, more than                 was questioned related to misclassification as ODC, rather
than subcontract costs, during the FY 2000-2002 incurred cost audits. The misclassification
caused ODC costs to be overstated in the SAP accounting system. While the contractor stated
that the costs were billed correctly, the overstatement of ODC
                                                                                             . The
contractor recognized the error and corrected it in the billings to NSF but failed to make the
correction in its SAP accounting system.

RECOMMENDATION:

We recommend that the contractor provide adequate training on the proper classification of costs
(direct vs. indirect), and posting the transactions to the correct expense accounts (e.g. subcontract
costs vs. Miscellaneous ODC). It is important to stress the adverse effect of the indirect burden
applications when classified to an incorrect expense account.

In addition, we recommend that the contractor develop a CASB Disclosure Statement for FY
2005 and forward that complies with all cost accounting standards. Specifically, CAS 418-40(a)
requires that a business unit shall have a written statement of accounting policies and practices
for classifying costs as direct or indirect and they must be consistently applied. Once that
Disclosure Statement is developed, the contractor should follow RPSC disclosed practices.



                                                 20
Audit Report No. 6161-2004T14980202

Finally, we recommend that the contractor develop policies and procedures related to the
allocability of Indirect/ODC that contain at a minimum, the following criteria:

 ¾ The definitions of indirect and direct costs: The policies and procedures should contain the
   definitions for indirect costs as well as the definition of direct costs to assist the employee
   in his/her determination of the correct classification of costs.

 ¾ The definition of allocability: Policies and procedures should contain the definition of
   allocability based on FAR 31.201-4 in order for the employees to understand the
   implications associated with the incorrect classification of costs either direct, indirect, to
   improper final cost objectives, or improper indirect cost pools. This FAR reference states:

       A cost is allocable if it is assignable or chargeable to one or more cost objectives on the
       basis of relative benefits received or other equitable relationship. Subject to the
       foregoing, a cost is allocable to a government contract if it-
               a. Is incurred specifically for the contract;
               b. Benefits both the contract and other work, and can be distributed to them in
                   reasonable proportion to the benefits received; or
               c. Is necessary to the overall operation of the business, although a direct
                   relationship to any particular cost objective cannot be shown.

 ¾ Requirements for training of employees in the area of allocability: Policies and procedures
   should require training on allocability to employees who are responsible for the booking of
   Indirect/ODC costs. The requirements should include the formats of training to be
   required, the frequency of the training requirements, requirement to maintain
   documentation for training history, and the topics of required training. The training should
   cover at a minimum:

           o FAR requirements
           o CAS requirements
           o Disclosed Practices

 ¾ Requirements for management review and approval: At a minimum, there should be a
   requirement for defined management oversight and approval on:

           o Transactions pertaining to the charging, allocation of or movement of costs into
             the Indirect/ODC system.
           o Policies and procedures that dictate the process by which costs are allocable to
             final cost objectives.
           o Training of personnel involved in Indirect/ODC processes.
           o Disclosure Statement development and maintenance.

                                                21
Audit Report No. 6161-2004T14980202

 ¾ Requirements for evidential matter on transactions to support booking of costs to a
   particular final cost objective or indirect cost pool: Policies and procedures should require
   that transactions contain sufficient evidential matter to support all job charges. Evidential
   matter would include documentation from a purchase order, program manager, or other
   supporting matter that proves the items purchased or costs being charged are actually
   allocable to the job charge (WBS) to which they are being assigned.

CONTRACTOR’S RESPONSE:

“The alleged deficiencies identified in Statement 4 of the Audit Report duplicate findings that
have appeared in substantially the same way in previous audit reports, including DCAA’s draft
incurred cost Audit Report No. 6161-2004P10160205 dated August 24, 2004. RTSC responded
to that draft on December 13, 2004, and its position has not changed since that response was
submitted. A copy of that response is attached.”

AUDITOR’S COMMENTS:

A copy of the response that the contractor mentioned as being attached was not provided.
However, that response included the same comments the contractor provided to us during our FY
2000-2002 incurred cost audits and which we incorporated into the related incurred cost audit
reports.

The contractor’s response does not adequately address our recommendations. We believe that
the contractor still needs controls over indirect and direct costs, allocability, and so forth.

We will perform a follow-up review once the contractor has had sufficient time to implement
adequate controls to correct the deficiencies and comply with our recommendations. For us to
evaluate the adequacy of the corrective action plan for a follow-up review, the contractor should
document and maintain the plan in sufficient detail to demonstrate how each of our
recommendations was addressed.




                                               22
Audit Report No. 6161-2004T14980202

                  CONTRACTOR ORGANIZATION AND SYSTEMS

I.    Organization

      RTSC headquarters is located in Reston, VA.




                                           23
Audit Report No. 6161-2004T14980202

       RTSC has a multi-disciplined workforce of approximately                           . RTSC
provides technical, scientific, and professional services to defense, federal, and commercial
customers on all seven continents, including support for operations in space, at sea, and on land.
RTSC had annual sales of approximately                     in FY 2004, of which over             are
primarily government prime contracts and subcontracts. Of the government contracts and
subcontracts, approximately               are flexibly priced (i.e. cost type and time and materials
(T&M) type).




                                                 24
Pages 25 through 31 have been redacted in their entirety
Audit Report No. 6161-2004T14980202

 CASB                9903.202-1: Audit Report No. 6161-2005T19200303, dated
November 18, 2005, indicates that RTSC disclosed and established cost accounting practices are
in noncompliance with CASB 9903.202-1, Disclosure Statement General Requirements.
Specifically, effective January 1, 2005, RTSC Raytheon Polar Services Company (RPSC)
business unit does not have a separate disclosure statement to describe its unique cost accounting
practices used to account for direct and indirect costs. The DACO has not yet made an initial
finding of noncompliance on this issue.

 CAS               418: Audit Report No. 6161-2005T19200001, dated June 23, 2005, indicates
that the actual cost accounting practices of one of RTSC’s business units, Raytheon Polar
Services Company (RPSC), are in noncompliance with CAS 418 and with disclosed cost
accounting practices. Specifically, during the period from January 1, 2000 through
December 31, 2002, costs that were disclosed as indirect were recorded and charged direct to the
Polar Services contract. Recording and charging these costs direct to the contract results in 100
percent recovery through contract billings to the government (i.e., National Science Foundation).
On September 28, 2005, the DACO issued an initial finding of noncompliance on this issue.




                                               32

                                 FOR OFFICIAL USE ONLY
Audit Report No. 6161-2004T14980202




          CAS 405: Audit Report No. 6162-2003T19200204, dated June 5, 2003, indicates that
the contractor’s cost accounting practices are in noncompliance with CAS 405, Accounting for
Unallowable Costs, and FAR Part 31. Specifically, RTSC is not adequately complying with
established controls to properly classify and record unallowable costs. In addition, RTSC is not
adequately complying with Raytheon Company policies and procedures for specific cost
elements that were designed for controlling cost and determining/documenting cost allowability
and compliance with government regulations. On December 12, 2004, the DACO withdrew his
initial finding of noncompliance on this issue; stating that “Any potential cost impact associated
with the Initial Finding will be resolved as part of the annual Incurred Cost negotiations.”
Nevertheless, we will continue to report DCAA’s CAS 405 noncompliance audit report until
after accomplishment of follow-up compliance and transaction testing performed as part of
DCAA’s comprehensive audit of RTSC during FY 2005 to ensure that the reported instances of
noncompliance have ceased to exist.

             CAS 418: Audit Report No. 6162-2003T19200205, dated June 5, 2003, indicates
that the contractor’s cost accounting practices are in noncompliance with CAS 418, Allocability
of Direct and Indirect Costs. Specifically, RTSC lacks adequate written policies and procedures
for monitoring the indirect/other direct cost system. In addition, RTSC employees responsible
for performing indirect/other direct cost functions have not received adequate training in
applicable government rules and regulations such as FAR and CAS. RTSC also lacks adequate
controls to ensure consistent compliance in cost classifications as direct or indirect. On
December 12, 2004, the DACO withdrew his initial finding of noncompliance on this issue
stating that “Any potential cost impact associated with the Initial Finding will be resolved as part
of the annual Incurred Cost negotiations.” Nevertheless, we will continue to report DCAA’s
CAS 418 noncompliance audit report until after accomplishment of follow-up compliance testing
performed jointly during DCAA’s in-process FY 2005 CAS 418 Compliance and Indirect and
Other Direct Cost Internal Control System examinations (reference DCAA Audit Assignment
Nos. 6161-2005T19403300 and 6161-2005T14980300 respectively) to ensure that the reported
instances of noncompliance have ceased to exist.



                                                33

                                 FOR OFFICIAL USE ONLY
Pages 34 has been redacted in its entirety
Audit Report No. 6161-2004T14980202

                                      DCAA PERSONNEL

Telephone                                                               No.
Primary contacts regarding this audit:




Other contact regarding this audit report:

                      , Branch Manager


                                                             FAX No.



                                                             E-mail Address


General information on audit matters is available at http://www.dcaa.mil/.

AUDIT REPORT AUTHORIZED BY:


                                                            /Signed/


                                                            Branch Manager
                                                            DCAA Herndon Branch Office




                                               35
Audit Report No. 6161-2004T14980202

                AUDIT REPORT DISTRIBUTION AND RESTRICTIONS

                                     DISTRIBUTION

 E-m                                                                   ail Address
National Science Foundation                                        Kstagner@nsf.gov
ATTN: Ms. Deborah Cureton, Associate Inspector General for Audit
4201 Wilson Boulevard
Arlington, VA 22230

Polar Services
Raytheon Technical Services Company
12160 Sunrise Valley Drive
Reston, VA 20191
(Copy furnished thru NSF Contracting Officer)




                                                36
Audit Report No. 6161-2004T14980202




                                 APPENDIX
 Contractors Response to Statements of Condition and Recommendation Memorandum
                               Dated October 30, 2005




                                      37
November 30, 2005

To:            Defense Contract Audit Agency
 Attn:
 171               Elden Street
               Herndon, VA 20170-4810

Subject:       Raytheon Polar Services Company – Indirect/ODC System Review

Reference:     06-02L-002 (6161-2004T14980202)

Please find below Raytheon Polar Services re     sponse to the Statem ent of Conditions and
Recommendations included in the subject letter dated October 31, 2005.

In summary, RTSC Finance strives for a World Class Internal Control Environment. In addition
to Raytheon’s Internal C ontrols Excellence (ICE) Initiative in re sponse to the Sarbanes – Oxley
Act, RTSC has actively dedicated resources to improve all areas of Internal Control and are
confident th at we’ve im plemented a control env ironment that m eets or exceeds DCAA’s high
standard of excellence.

First, to address the deficiencies in the control objectives:

Management Compliance Reviews

RTSC makes every effort to ensure that it complies with all regulations and standards required as
a contractor to the U.S. Government.

In respect to the no ted deficien cies and reco mmendations RTSC – Polar Services ag rees to
update the Polar Services procedur es to include adequate m anagement reviews where required.
In addition RTSC agrees to create a Polar Serv ices Management Compliance Review Procedure
to ensure proper oversight per the audit report recommendation. The procedures will be updated
and the Management Compliance Review Procedure created by January 30, 2006.

Training
RTSC provides all em ployees with the necessary training and or resour ces to p erform their
responsibilities. RTSC, through the Raytheon Learning In stitute, provides courses designed to
accompany the train ing em ployees have received within their respective d epartments. In
addition, RTSC provides resource material on the com pany website to assist em ployees along
with contact inform ation for subject m atter expe rts. The website also provides access to all
Raytheon Company and RTSC Policies and Procedures for all functions (i.e . Finance, Contracts,
Human Resources, Engineering, et al) for governance and compliance.

RTSC believes in continued im provement in a ll areas including policies and procedures and
training. As a result of the suggestions provided in this audit report we agree to implem ent a
procedure designed to standardize to training    requirements for Polar Service employees of
appropriate polic ies and procedures and CAS and FAR statem ents. The proced ure will be
developed and implemented by March 31, 2006.


Allowability of Selected Indirect Costs

RTSC provides annual guidance to all em ployees on the subject of Allowable and Unallowable
Costs per the FAR. Als o all em ployees are provided contact names for additional guidance, if
required. C lasses are offered by the Raytheon Com pany on the subjects of FAR, CAS and
Principles for Financial Regulations. A cour se, specifically on Allo wable and Unallowable
Costs is being rolled out this month by the company. It will be offered to all Raytheon Company
employees in a teacher training environment and also web-based training to ensure all employees
have access to the materials.

With respect to suggestions regarding the Po lar Services Program Po licies and P rocedures,
RTSC agrees that thes e should be updated and will provid e revised versions in alig nment with
Raytheon policies, no later than January 30, 2006. The revised Polar Services Program Policies
and Procedures will also include a s ection on management approvals and oversight designed to
ensure that proper reviews for allowable and unallowable costs are performed in accordance with
FAR 31.205.

In review many of the exam ples provided in the a udit report are required in the perform ance of
the contract and are allowable costs. It appears that some costs may be unallowable based on the
information provided in the aud it report. Pola r Serv ices has address ed each of the exam ples
below and we would appreciate scheduling         a review of the docum entation and supporting
justification for allowability with you for each of the questioned items and withdraw the costs if
appropriate.

   •   Invoice from Harry & David gourmet disclosed that a tower of chocolates was purchased
       as a holiday gift from the Program Manager to an unspecified recipient.
        o Although still investigating the initial bookkeeping and fi nal disposition, RTSC
             agrees this is an unallow able charge and w ill be corrected if found to be
             incorrectly charged to a billable WBS.
•   Two (2) charges for Dave and Busters on a pro-card statem ent w ithout any supporting
    documentation. The charges were for $998.00 and $972.57. This would have been
    considered entertainment expense based on FAR 31.205-14.
        o The purpose of these two charges were for recognition of the I                nformation
             Technology (IT) department for their outstanding performance for the past season
             by the IT staff and allowable under FAR Part 31.205-13.
•   The contractor subm itted a Lowes Hom e Improvement receipt with a pro-card sta tement
    for air condition ing s upplies. The purpose of the purchase was              not adequately
    documented.
        o Agree to include documentation requirements in updated procedures.
•   The contractor subm itted invoices related to the rental of tables, chairs, w ater barrels etc
    for the purpose of a barbeque. The rental equipment was provided by Butler Rents. The
    barbeque was catered by Frank’s Barbeque. The function was held a              round the tim e
                     th
    frame of July 4 and no purpose was provided for the charge. The credit card statem ent
    (pro-card) was approved by m anagement although an unallowable job charge w as not
    specified for the purchase.
        o The purpose of the event was to recognize all P olar Services em ployees for the
             past austral summer season accom plishments on the contract and allowable under
             FAR Part 31.205-13.
•   Charges for an end of se ason barbeque were ch arged direct to the contract. These item s
    were submitted without sufficient documentation or business purpose.
        o Polar Services agrees that in this case the supporting materials were not sufficient;
             however, Polar Services can provide doc umentation to support these costs as
             allowable under the con tract. The lack of proper approval pr ior to pur chase will
             be addressed in the revised procedures and training.
        o The following procedure applies to the pr oceeding five bullets . The pro-card
             procedure is a com pany-wide process with access to the program through the
             web.
                  The pro-card holder m akes the initial pur chase. The purchase defaults to
                     one account number.
                  The pro-card holder has the ability        during their reconc iliation of their
                     account, to allocate or distribute charges to other charge accounts.
                  The m anager, also during their revi ew has the opportunity to identif y
                     correct account information.
                  Polar Services, through their Perform ance/Quality Assurance departm ent
                     has instituted additional audit p rocedures to insure the proper assigning of
                     accounts to purchases on the pro-card. Polar Services is testing 100% of
                     all purchases of all card holders at least annually.
•   Transactions related to items billed from a subcontractor included stereo equipment for a
    gym, an espresso machine, and beer/wine.
•   An invoice from High Anxiet y Wholesales which billed fo r fifty (50) Fleece vests
    embroidered with the Antarctic Star. These costs are not considered reasonable based on
    FAR 31.201-2(d). In ad dition, the p urpose of the ves ts and to whom they were iss ued
    was not disclosed which suggests potential noncom pliance with FAR 31.205-1(f)(5) –
    Public relation and advertising costs.
•   The contractor paid charges on a pro-card statem ent for va rious am ounts that were not
    supported and are likely personal purchases. Purchases at Virgin Body Care Inc. which
    sells herbal, nutritional, and food supplem ents. Purchases were also made at the Raining
    Rose which specialize in all natural, ha ndcrafted body care products , soaps, sham poos,
    lotions, shower gels, etc. These costs ar e considered unallowable based on FAR 31.201-
    2(d). There was also a charge for a Colora do Restaurant Association m embership. The
    association with the contract was not established.
•   An invoice for 548 Souvenir Base caps was subm itted. The invoice was presented with a
    purchase order which failed to identify the purpose of the baseball caps in relation to the
    performance of the contract. The invoice was initialed by a Finance departm ent person
    and the purchase o rder was not s igned at al l. These cos ts are cons idered unallow able
    based on FAR 31.205-13(b).
        o The following procedure applies to the four proceeding bullets.
                 Polar Services is require d under the contract with the NSF “to m aintain
                    and operate the recreation and retail      operations at all of the Antarc tic
                    Stations.” Please see Attachment A, an example of the Contract Statement
                    of Work.
                 An annual approved program plan between the NSF and Polar Services
                    establishes budgets to supply and opera te these facilities. Please see
                    Attachment A for an exam         ple of the WBS narrative and level of
                    budgeting.
                 Before Polar Servic es purchases such items, Polar Serv ices is autho rized
                    by the NSF through the annual budgeting process.
                 Polar Serv ices then f ollows norm al purchasing process to procure item s
                    necessary to fulfill the contract requirements.
                 The objec tive f or the reta il op erations is to break ev en. The NSF
                    periodically adjusts prices for the r etail operations to pr eclude a prof it or
                    loss position.

•   Booking of identified unallowable direct tr     avel direct to the    contract using the
    miscellaneous ODC account category and project R-PS27.
       o The travel and living system automatically books over per diem to an unallowable
           account. T his then has to be analyzed and then journalized to a billable W BS if
           proper documentation exist to be considered allowable.
       o Polar Services charges to the contract direct for travel costs for hotels in excess of
         the authorized government per diem on an exception basis. Per the FAR, a
         Contractor can charge the contract for hot el costs in excess of the governm ent per
         diem when it has been researched and determined that no other accommodations
         are availab le within per diem . Pol ar Se rvices does this research and the Polar
         Services Travel Department requests approval of th e Program Manager to book a
         traveler in a hotel over per diem . Only when this autho rization is pro vided does
         Polar Services book the am ount in excess of the governm ent per diem to the
         contract.
       o Polar Serv ices agree s to streng then the docum entation requ ired to sup port the
         journal entry.

•   Several transactions related to preseason soci al to include wine, ice sculptures, quartets,
    flowers, etc were ch arged direct to th e contract. Thes e item s were app roved by
    management for reim bursement under the c ontract but are unallo wable based on FAR
    31.205-13, FAR 31.205-14 and FAR 31.205-51.
        o Except for the prepaym ent for the NZ $945.00, Polar Services did not charge the
           above costs to the contract. According to procedures, these costs were charged to
           a non-billable project R -PS09. The N Z $945.00 was incorrectly charged to the
           contract and a jou rnal entr y has already been com pleted an d the cost h as been
           moved to the non-billable project along with the other costs related to this event.

•   The contractor incu rred a penalt y related to th e payment of taxes for an employee to the
    New Zealand IRD. The penalty and the ta          xes are considered expressly unallowable
    based on FAR 31.205-41.
       o An invoice was receiv ed with a total dolla r amount to be p aid. The penalty was
           identified in the details.
       o Polar Services believes that the payment of taxes is allowable under FA R 31-205-
           41(1)(a). These taxes were paid for an expatriate em        ployee working in Ne w
           Zealand on the contract with the NSF. The payment of taxes was for pa yment of
           employment taxes. Polar Services agrees that the penalty assessed by the New
           Zealand IR D is unallowable and should not be charged to the contract. Polar
           Services has already moved these costs to the non-billable project R-PS09.

•   The contractor purchased seve nteen (17) gift ce rtificates from various businesses and
    restaurants in the New Zealand area for the purpose of safety awards. No docum entation
    of an award program or who the aw ards were being presented to was included with the
    transaction. This transaction was based solely on an email request.
        o Polar Services agrees that in this case the supporting materials were not sufficient;
            however, Polar Services can provide doc umentation to support these costs as
            allowable under the con tract. The lack of proper approval pr ior to pur chase will
            be addressed in the revised procedures and training.
RTSC Polar Services Program recognizes that proper documentation of certain transactions must
be docum ented and kept in the pr oper fi les for assessi bility. Th is will be addressed in m ore
detail in the appropriate Polar Services policies and procedures.
Allocability of Costs

The alleged deficien cies iden tified in Statem ent 4 of the Aud it Report duplicate findings that
have appeared in substantially the same way in previous aud it reports, including DCAA’s draft
incurred cost Audit Report No. 6161- 2004P10160205 dated August 24, 2004. RTSC responded
to that draft on Decem ber 13, 2004, and its pos ition has no t changed since that res ponse was
submitted. A copy of that response is attached.

Sincerely,




RPSC

Cc:




Attachment A:

Contract SOW:

C7.3.1.15 Retail, Recreational and Religious Services

The Contractor shall provide comm unity service functions at McMurdo. Sim ilar services, on a
smaller scale, shall also be provided by the Contr actor at the other stations. These functions are
described below.

C7.3.1.15.1 Clubs

The Contractor shall operate a nd m aintain three social cent ers (Buildings 76, 106 and 107)
serving alcoholic and non-alcoholic beverages. Two of these faci lities ar e ba rs (one a llows
smoking; the other is non-sm oking) and the third is a coffeehouse that also serves wine. The
Contractor shall manage the clubs; procure, store and re stock inventories; re cruit bartenders and
other staff as needed (paid through the opera    ting fund) from the popul ation; and m aintain
financial records according to NSF approved accounting practices.

C7.3.1.15.2 Retail      Store
The Contractor shall operate and maintain a re tail store in Building 155. The Cont ractor shall
manage the store; procure, store and restock inventories; recruit supplemental staff such as clerks
(paid through the operating fund) from the population; and mainta in financial records according
to NSF approved accounting practices.


C7.3.2     Amundsen/Scott South Pole Station

C7.3.2.14 Retail and Recreational Services

The Contractor shall operate and m aintain a small retail store and a bar at the station, and shall
provide a lim ited range of recrea tional services The Contractor shall ensure that recreational
activities are conducted in a safe and responsible fashion.


C7.3.3 Palm      er Station

C7.3.3.14 Retail and Recreational Services

The Contractor shall operate and m aintain a small retail store and a bar at the station, and shall
provide a lim ited range of recrea tional serv ices. The Contractor sh all e nsure tha t r ecreational
activities are conducted in a safe and responsible fashion.


Information from Annual Program Plan (example)
 R-PS60-215A95
 MCMURDO STATION
 BEVERAGE

WBS Narrative:

This WBS contains the alcohol and soft drink order for McMurdo Station. These are sold
through the retail outlets. This also includes the bar food supplied and other non-food and
beverage supplies. (i.e. napkins straws etc.)

The winter supply, brought in on Vessel, includes enough quantity to cover the next early
summer season.

Quantities and selections are based on historical data and community requests. The formula for
McMurdo was derived by averaging three years of consumption reports by category and utilizing
the same population projection used in the food budget. See below actual formula.
The Beverage, Recreation and Retail WBS's for McMurdo, South Pole and Palmer Stations are
self sustaining when compared over a three year period.

WBS Summary:

Labor/Fringe/Bonus: Increase of               to Fringe rate difference.

Materials:
McMurdo -         McM Bar Supplies (Straws, napkins, etc.)
McMurdo -         for Alcohol and soft drinks order for the year
McMurdo -         Coffee House Supplies (Redirected from the previous purchasing Recreation
budget. This belong in Beverage)


See Consumption formula below for breakout.
Average Daily Consumption figures based on usage history at McMurdo.




Product    Average Daily Consumption        Man Days        Ave. Price each   Estimated Order
Required

(Consumption*MD*Price)
Soda Cans
Beer Cans
Wine Bottles
Liquor Bottles
TOTAL

McMurdo Burger Bar and Bar Foods: This is an increase to the baseline. Traditionally the
McMurdo beverage/recreation services has received food for the burger bar and over the counter
sales services by utilizing food from the food services inventory. We are requesting to
consolidate all bar drinks, supplies and foods in one WBS.
